No. 19-832

Supreme Court of the United States

APPLE, INC.,
Petitioner,
v.
VIRNETX INC., ET AL.,
Respondents.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES CouRT OF APPEALS
FOR THE FEDERAL CIRCUIT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF THE
R STREET INSTITUTE, THE ELECTRONIC FRONTIER FOUNDATION, AND ENGINE
Apvocacy As AMICI CURIAE IN SUPPORT OF THE PETITION contains 5,901 words,
exempting parts of the document that are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Respectfully submitted,

SZ re G EN

Dated: February 3, 2020 I, <- fa a.
CHARLES,DUAK
R STREET INSTITUTE
1212 New York Ave NW Ste 900
Washington DC 20005
(202) 525-5717

eduan@rstreet.org

Counsel for amici curiae
